                           UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

          Office of Inspector General





       Information Technology

        Memorandum Report



Review of the Information

 Security Program at the

  Broadcasting Board of

       Governors


Report Number IT-I-05-10, September 2005




                              IMI'oIHANT NOTICE

This report is intended solely for the official use of Ihe Departillent of Stale or the
Broadcasting Board ofGovcmors, or any agency or organization receiving a copy
directly from the Office of Jllspcctor General. No secondary distribution may be
made, in whole or in pari, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability orthe document will
be determined by the Inspector General under the U.S. Code, 5 U.S.c. 552.
Improper disclosure of this report may result in criminal, civil, or administrative
penalties.



                           UNCLASSIFIED

                                                         l nilM SlaiN Del)arll11Cnl or Siall'
                                                         and Ihe Broadn ling Board or Co\emon

                                                         IftJpector GfI'ftPrnl




                                           PRFfACE


     This repon was prepared by the Office:' of Inspector General (OIG) pursuanlto the
Inspector General Act of 1978, as amended. and Section 209 of the ForeIgn SerVIce Act of
1980. as amended. It IS one of a series of audit. lllspectlon. In\'estlgatl\e. and special repons
prepared by OIG penO(lIcall} as pan of its responsibility to promote elTcclive management.
accountabililY. and POSltl\ c change in the Department of State and the Broadcaslmg Board of
Go\emors,

     This report is the resuh of an assessment of the strengths and \\e:'al.:nesses of the office. post.
or function under fe\ ie" It IS based on inte"ie"s "lIh employees and onicia1s of rele\ant
agencies and mStlUnlons, direct obscn ation. and a re\ 11..'\\ of applicable documents.

      The recommendations Iherem have been de\'elopcd on Ihe basiS oflhe best kno.... ledge
a\ ailable to the DIG and. as appropriate. ha\'e been diScussed in draft \\llh those responsible for
Implementatlon, It IS rn) hope that these recommendallons will result In more etTecme.
effiCient. and or economical operations,

     I e"press my appreciation to all of those who comnbuted 10 the preparation orthls report




                                          ~" ~                \ \<v;-            ,\
                                             Howard J Krongard
                                             lnspeclor General
                                                     Introduction

        In response 10 the Federal Information Security Management Act of 2002 (FlSMA), I the
Office of Inspector General (DIG) performed an independent review of the information security
program of the Broadcasting Board of Governors (BBG). FlSMA provides a comprehensive
framework for establishing and ensuring the effectiveness of controls over information
technology (IT) resources that support federal operations and assets and a mechanism for
improved oversight of federal agency information security programs. In addition, Office of
Management and Budget COMB) implementation guidance for FISMA requires DIGs to assess
development, implementation, and management of the agency-wide plan of action and
milestones (POA&M) process and to focus on performance measures. The specific objectives of
OIG's review were to assess BBG's progress in developing its information security program and
practices as they relate to FlSMA and determine BRG's processes for implementing the
requirements of the law.

        To fulfill the review objectives, DIG held discussions with BBG officials from the
International Broadcasting Bureau (IBB), Office of Cuba Broadcasting (OCB), and the
transmitting station in Botswana. DIG did not conduct a review of BBG's grantee organizations:
Radio Free Europe/Radio Liberty (RFE/RL), Radio Free Asia (RFA), Middle East Broadcasting
Networks (MBN), and Radio Farda-a special project in conjunction with Voice of America
(YOA).

        In addition to discussions with BBG management and staff, DIG selected a subset of
systems and performed a detailed analysis of risk assessments and security plans as well as
POA&M documentation and certification and accreditation packages. The subset consisted of
the Central InfrastrucfUre Domain, Central Services Domain, Central Extranet Domain, Cuba
Broadcasting Headquarters Network, Botswana Transmitting Station Network, and the Public
Internet Web Site. OIG held discussions with the managers of these systems to verify the
processes and procedure.."i employed in development and submission of FISMA documentation.
DIG collected other relevant supporting IT documentation as appropriate.

         DIG's Office of Information Technology performed this review from July 2005 through
the first week of September 2005. Major contributors to this report were Mary S. Heard and
Matthew J. Ragnelli. Comments or questions about the repon may be directed to Ms. Heard at
heardm@state.govor(703) 284-2656.




I   P.L. 107-347. Tille 111;44 U.S.c. 3541 Q!li£R.
                                            Results in Brief
        DIG's evaluation of the BBO's information security program concluded that BBG has
made progress in the past year in meeting FISMA requirements and is adjusting well to last
year's reorganization of IT operations (see Appendix A). BBG added a 25th system to its major
systems inventory and categorized all of the systems based on risk impact levels as required by
Federal Information Processing Standards (FIPS) Publication 199. BBG completed certification
and accreditation for 28 percent (7 of 25) of its major systems. Ninety-two percent (23 of 25) of
the major systems have risk assessments, system security plans, and POA&Ms. Also, BBG
developed agency-wide POA&Ms to address findings reported in previous 010 FISMA reviews
and site inspections. Lastly, BBG deployed a new security awareness training program for FY
2005 that has had positive reviews.




                  BSG's method of tracking POA&Ms is cumbersome and has resulted in lapsed
milestones. Finally, SSG has not completed development of an agency~wide enterprise
architecture, a recommendation from last year's OIG report and a requirement since 2002. BBG
concurred with OIG's recommendations and is moving forward to implement the
recommendations. SSG's comments on a draft of the report are reproduced in Appendix B.




                                             Background
       The U.S. International Broadcasting Act of 1994 2 created SSG as a self-governing
element within the former United States Information Agency, which provided limited
administrative, technical, and management SUppOl1 to SSG. The Foreign Affairs Reform and
Restructuring Act of 1998 3 granted SBG independence from United States Infomlation Agency
on October I, 1999. With the exception of limited Department of State broadcasting, BSG is
responsible for overseeing all U.S. government-funded civilian broadcasting, induding the
operations of IBB, which includes VOA and OCB. BBG also oversees four grantee
organizations: RFElRL, RFA, MBN, and Radio Farda, a joint effort of RFE/RL and VOA that
complements VOA's Persian-language radio and television broadcasts into Iran.

        Information security is an imporlant consideration for any organization that depends on
information systems and information networks to carry out its mission. The dramatic expansion
and rapid increase in the use of the Internet has changed the way the U.S. government, private
sector, and much of the world communicate and conduct business. However, without proper
safeguards, this widespread interconneclivity poses significant risks to the infrastructure it
supports and makes it easier and relatively inexpensive for individuals and groups to eavesdrop
on government operations, obtain sensitive information, commit fraud, disrupt operations, or
launch attacks against other information networks and systems. The war on terrorism and recent

2   P.L. 103-236. Title III. Sec. 301 ~~.
3   P.L. 105-277.


                                                                                                  2
terrorist attacks underscore the need to maintain information security in order to continue
program broadcasting to BBG audiences relying on impartial reports via satellite television and
radio. These transmissions can be direct to home, to affiliates for rebroadcast, or to IBB-owncd
stations and frequencies for broadcasting. U.S. broadcasting initiatives, which use information
systems and information networks to complete their mission, counter the efforts of local and
state-sponsored newspapers and broadcasters that portray the United States as anti-Muslim.

       Faced with continued concerns about information security risks to the federal government,
Congress passed and the President signed FlSMA into law in December 2002. The law provides a
comprehensive framework for establishing and ensuring the effectiveness of controls over
information resources that support federal operations and assets and a mechanism for improving
oversight of federal agency information security programs. Also, FISMA and OMB
implementation guidance specifically:

           •	 require agency OIGs to assess the development, implementation, and management of
              the agency POA&M process;
           •	 require agency development of minimum standards for agency systems;
           •	 introduce a statutory definition for information security;
           •	 define agency IT security responsibilities; and
           •	 broaden the scope of the Clinger-Cohen Act 4 to include federal information systems
              used or operated by contractors acquired for Lise on federal contracts.

FISMA and OMS implementation guidance also require that each agency:

           •	 develop and maintain a major information systems inventory;
           •	 develop system configuration requirements;
           •	 perform annual periodic testing and evaluation of systems;
           •	 include provisions for continuity of operations in its security program;
           •	 have a qualified senior agency information security officer report to the Chief
              Information Officer (CIO); and
           •	 send annual reports to OMB and various congressional committees.


                     Overview of BBG's Information Security Program
        In February 200 I, DIG found that BBG did not have a documented information security
program or wrillen policies and procedures covering information security. During 200 I, BBG's
senior management began taking actions to develop its IT security program by appointing a CIO
who drafted a framework for the BBG information security program and started developing
security plans to protect BBG's mission-critical systems. During its 2002 Government
Information Security Reform Act (GISRA) evaluation,5 OIG noted thai BBG was making
progress in developing its agency-wide information security program by completing program­
level self-assessments and documenting the results in its quarterly reporting of the agency's

4 1nfonllation Technology Management Reform Act of 1996. P.L. 104-106, Div. E: 40 U.S.c. 11101 el seq.
5   Infurmation Security Progrmn Evaluation: Broadcasting Board of GOI'emors (IT-A-02-07. Sept. 2(02).


                                                                                                         3
POA&M to OMB. DIG's 2003 FISMA evaluation6 reported that BSG had made limited
progress in complying with the requirements of FISMA.

        In April 2004, Congress approved, and on May 30, 2004, SBG implemented, a
reorganization consolidating all IT functions into a common program area, the Office of
Engineering and Technical Services. BBG designated the director of this office as the Chief
Technology Officer (CTO) and appointed a Chief Information Security Officer (CISO). To meet
2004 FISMA requirements, BBG defined 24 major systems, performed risk assessments, and
developed general support system and major application system security plans, operating system
security configuration standards, and patch management policies. Additionally, BBG developed
an agency-wide incident response plan, an IT security awareness training program, and
POA&Ms for ten of its 24 major systems. Despite the progress, DIG found that BSG did not
have an enterprise architecture or capital planning and investment control process in place, and
transmitting stations Overseas were not receiving sufficient guidance for meeting FISMA
requiremems.

       DIG closed II of its 12 recommendations from the GlSRA 2002 and FISMA 2003 and
2004 evaluations. BBG continues to work toward closing the remaining recommendations by
implementing actions designed to improve the overall information security program, including
development of an agency-wide enterprise architecture.


                                                Review Findings

         BBG continues to make progress in developing its information security program to meet
FISMA requirements after consolidating disparate units under one IT authority. BSG's
continued efforts 10 respond to FISMA reporting requirements, as well as DIG's inspection work
at the transmining station in Botswana, have revcaled additional areas where BBG is considering
reorganizing IT operations to improve information security and compliance with FISMA. OIG
supports BSG's progress in developing its information security program and encourages BSG
senior management and staff to continue developing the program to comply with FlSMA
requirements and National Institute of Standards and Technology (NIST) guidance.

Progress in Meeting FISMA Requirements

        In the FY 2002 GISRA evaluation, DIG disagreed with BBG's approach in grouping all
systems within five functional areas because this organizational structure did not meet GISRA
security requirements. During the FISMA evaluation of BBG in FY 2003, OIG reported that the
BBG CIO had neither the time nor the IT qualifications to carry out the CIO's role and had not
assigned a senior agency information security officer and information system security officers.
Also during FY 2003, fEB's director noted several IT operational deficiencies and areas for
improvement and hired a contractor to perform an independent review of BBG 's IT services,
management, and operations. The independent review identified a lack of effective
communication and collaboration among program areas and recommended a restructuring of
BBG's IT organization.

6   Review of rhe Informarion SeCilrity Program ar Broadcasring Board of Gor('/"Ilors (IT-A-03-14, Sept. 2003).


                                                                                                                  4
        In April 2004, Congress approved, and on May 30, 2004, BBG implemented, a
reorganization of its IT management structure, responsibilities, and functions by consolidating
overall IT program management under the Office of Engineering and Technical Services. BBG
named the director of the Office of Engincering and Technical Services as the CTO, with
responsibility for all engineering and transmission service functions, and added a new
consolidated Information Technology Directorate. BBG appointed a qualitlcd CIO and CTO to
direct and oversee a broad range of statutory functions, including meeting the FISMA
requirements. The CIO repons directly to the Board of Governors on all IT mailers. Lastly,
BBG created and the CIO tilled the CISO position that repons dircctly to the CIO and is
responsible for oversceing and participating in planning, assessing, and testing of IT operations
and ensuring compliance with FISMA.

        During FY 2004, BBG took stcps to meet FISMA and NIST guidance for developing an
agency-wide IT security program. BBG defined 24 major systems under the Office of
Enginecring and Technical Services. Additionally, BBG developed operating system security
configuration management policy for many of its operating systems, an incident response plan
for use at headquarters, and an IT security awareness training program. SSG performed risk
assessments and developed security plans and POA&Ms for ten of its 24 major systems. SSG
developed a program action plan to address the lack of documentation at transmitting stations,
continuity of operations plans, certification and accreditation, training of the IT support staff,
POA&Ms, and vulnerability and penetration testing.

       During FY 2005, SSG added a system to its list of major systems to bring the total to 25,
and made significant progress in meeting FISMA requirements, as shown in Appendix A. BBG
assessed and categorized all of its systems based on risk impact levels as required by BPS 199.
BBG completed certification and accreditation for seven of the 25 major systems. Risk
assessments, system security plans, and POA&Ms were completed for 23 of the 25 major
systcms. SBG developed an agency-wide POA&M to address findings reported in previous OIG
FISMA reviews and site inspections. Lastly, BBG deployed a new security awareness training
program for FY 2005 that has had positive reviews.

Centralizing Management of Transmitting Station Systems

       Despite the progress made toward improving its overall information security program and
meeting FISMA requirements,(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)




                                                                                                     5

        System managers perform the risk assessments that identify potential vulnerabilities and
create the system security plans and POA&Ms that outline their methodology for mitigating
identified risks. The resulting documentation, as well as an independent security assessment, is
included in system managers' application packages for certification and accreditation. If the
information that is input into this process from the initial stages is inaccurate or incomplete, the
CTO will be making an uninformed decision when accrediting systems.




          Recommendation I: The Chairman, Broadcasting Board of Governors should direct the
          Chief Technology Officer to centralize, at Washington, DC headquarters, the
          management of computer networks located at transmitting stations overseas.

 Implementing Minimum Standard Security Controls

        BBG's current agency-wide security configuration policy is established and available to
system managers on the computer security portion of their intranet site, which includes security
configuration guides for the operating systems in use at BBG, except for Windows Server 2003.
which is under development. BBG's security configuration methodology establishes a minimum
baseline for security controls, with the expectation that system managers are to implement
additional controls as necessary to ensure adequate protection of information systems.

        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
  (b) (2)(b) (2)
(b) (2)
(b) (2)
(b) (2)




         NIST has issued a draft version of FIPS Publication 200. which will require federal
agencies to implement the minimum security configuration standards recommended in NIST
Special Publication 800-53. In light of this, BSG is reevaluating its information security and
FlSMA efforts to create a Illore systematic approach. The resulting documentation, including
risk assessments, syslem security plans. and POA&Ms. should become Illore thorough and
meaningful, thus aiding in the certification and accreditation process. OIG supports BBG in its
efforts to use FISMA requirements more effectively to secure its information systems.

          Recommendation 2: The Chairman, Broadcasting Board of Governors should direct the
          Chief Information Officer to implement information system security controls in
          accordance with National Institute of Standards and Technology Special Publication
          800-53.



                                                                                                       6
Implementing an Automated FISMA Reporting Tool

        BBG currently has no automated tool for reporting progress in meeting FISMA
requirements. The CISO manages the agency-wide POA&M process and has distributed
reporting guidance and organized the updates. The elSa and system managers use electronic
mail for updating and reporting POA&M progress. However, as more systems now have the
required documentation completed and require updates, this process has become cumbersome to
keep track of and has resulted in lapsed milestones.

        The CISO cannot compel system managers to submit updates. BBG officials have
discussed obtaining an automated FISMA reporting tool that would track submissions and
automatically send reminders to system managers of impending deadlines, with copies sent to the
managers' supervisors as well. OIG supports BBG in its efforts to ensure effective management
of the POA&M process.

       Recommendation 3: The Chairman, Broadcasting Board of Governors should direct the
       Chief Information Officer to procure and implement an automated tool to facilitate
       reporting and tracking of progress in implementing Federal Information Security
       Management Act requirements and Office of Management and Budget reporting
       guidelines.

Developing an Enterprise Architecture

        OIG's 2004 FISMA report stated that BBG had not developed an agency-wide IT
enterprise architecture or capital planning and investment control process. BBG now has a
capital planning and investment control process in place but has 110t fully developed an enterprise
architecture. Disparate elements that comprise an enterprise architecture have been developed,
such as outlining business processes and network topologies, but they have not been integrated
sufficiently to satisfy the requirements of the Clinger-Cohen Act.

        Reinforced by FISMA and OMB gllidance, the Clinger-Cohen Act requires that agency
C10s, at a minimum. devclop an enterprise architeclUre that includes the agency's business
processes, information flows, hardware and software, data descriptions, and the IT infrastructure.
The enterprise architecture will help ensure thai BBG aligns its information system requirements
with its business processes and provides adequate interoperability between systems, desired
redundancy of systems, and necessary systems security.

       Recommendation 4: The Chairman, Broadcasting Board of Governors should direct the
       Chief Information Officer to develop an enterprise architecture that will align its
       information system requirements with its mission processes and provide adequate
       interoperability between systems, redundancy of systems, and systems security.




                                                                                                  7
                                     Recommendations

Recommendation I: The Chairman, Broadcasting Board of Governors should direct the Chief
Technology Officer to centralize, at Washington, DC headquarters, the management of computer
networks located at transmitting stations overseas.

Recommendation 2: The Chairman, Broadcasting Board of Governors should direct the Chief
Information Officer to implement information system security controls in accordance with
National Institute of Standards and Technology Special Publication 800-53.

Recommendation 3: The Chairman, Broadcasting Board of Governors should direct the Chief
Information Officer to procure and implement an automated {oollo facilitate reporting and
tracking of progress in implementing Fedcrallnformation Security Management Act
requirements and Office of Management and Budget reporting guidelines.

Recommendation 4: The Chairman, Broadcasting Board of Governors should direcl the Chief
Information Officer 10 develop an enterprise architecture that will align ils information system
requirements with its mission processes and provide adequate interoperability between systems,
redundancy of systems, and systems security.




                                                                                                   8
                                   Abbreviations

BBG      Broadcasting Board of Governors

CIO      Chid Information Officer

CISO     Chief Information Security Officer

CTO      Chief Technical Officer

FIPS     Federal Information Processing Standards

FISMA    Federal lnformation Security Management Act of 2002

GISRA    Government Information Security Reform Act

lBB      International Broadcasting Bureau

IT       Information technology

MBN      Middle East Broadcasting Networks

NIST     National Institute of Standards and Technology

OCB      Office of Cuba Broadcasting

OMB      Office of Management and Budget

OIG      Office of Inspector General

POA&M    Plan of action and milestones

RFA      Radio Free Asia

RFE/RL   Radio Free Europe/Radio Liberty

VOA      Voice of America




                                                               9
(b) (2)




          10

                                                                                                  Appendix B

  Comments From the Broadcasting Board of Governors



         BROA[)CAlo,lING BOARD OF GOVERNORS
         UNrIEO Sl'AT'ES OF AMERICA




                                            September 19, 2005




Ms. Mary S. Heard
Acting Assistant lnspcclor General
U.s Department of Stale

Dear Ms. Heard:

The Broadcasting Board ofGovemon; (BHG) appreciates the opportunity 10 review and
commcm on your Memorandum Report IT-1-05-10, Review ofthe In/ormal/on Sec/lruy Program
al Broadcastl"g Board a/Governors. September 1005.

The BBG is pleased that the Report finds thai the agency wnlinues to make visible progress on
several fronts in meeting the requirements oflhe Federal lnfonnation Security Management Act
(FISMA), and that the Board's actions last year to reorganize infonnation technology operations
are a contributing factor to that progress. As discussed in the Report. our Engineering
management is continuing to refine the operational responsibilities within the new IT
organimtion to more effcctively achieve security of operations. We gratefully acknowledge the
contmuing assistance and contributions of the OIG Information Technology staff in advising the
cia  and other IT officials on many relevant security mallers over the year.

The SBG concurs in the four recommendations contained in the Repon. and makes the following
comments.

Recommrndation I: The Chairman, Broadcasting Hoard ofGOlernors, should direct the Chief
Technology Officer to cell/rali:e, 01 Washing/o'l, D.C. headquarters. the manageme/ll of
compUler 'Ierworks located at Irwlsmilli/lg stations overseas

The agency concurs with this rc:<:ommendalion. After internal Engineering and CIa review of
transmitting station IT operations and FISMA compliance issues during the past year, inclUding
data provided by an OIG station inspection, the ChicfTochnology Officer in August 2005
directed the Deputies for Engineering Operations and Information Technology to cenlrali7.e
management of station IT systems under the Information Technology Directorate in Washington,
D.C, Implementation of this change is anticipated within six months.

Recommendation 2: The Cho/muln, Bro{/{Icasling Boord ofGOI'emors, should dlreCI/he Chief
Information OJ)icer 10 implemem II/fomul/IOII system securily conlrols in occorllQnce ,,"h
Nanonal /lrs/ltufe ofStOlldards and Technology Specwl Publication 800-53.




                                                                                                          II
                                                                                    Appendix B (continued)



                                                  2

1be agency concurs with this recommendation, and notes that the minimum security controls
enumewed in NIST Special Publication 800-53 will become mandatOf)' with the formal
publication ofFeder:allnfonnation Processing Standard 200. which is currently being circulated
in draft. As the OIG Report points out, the agency has already catcgorized i15 IT systems
pursuant to FIPS 199, which is the flJSl step in the process of imposing Ihe new go\'emment­
WIde mandatory minimum secunty controls.

Rttomm~nd.tion 3: The Chalf7fUUI. Broadcastlllg Board ofGo\'ul'lon. Jlrould d'rrcllM CJflt{
Iff/onnallon OjJiar to pl"OCW'e and implemenJ an automtJ/ed tool to facilltale reporting and
trachJrg ofprogress III Implementing Federal lff/ormotlOll SeouUy Matfllgemenl Aa
reqw,remenLS and OfJicr ofManagemetft and Budget reponing pulellJle!

The agency concurs with this recommendation. and is cUlTmtly in the process of acquiring
tBCking IOl\ware developed by the Envirorunenla! Protecuon Agency, and being offered to
agencies represented by the Fodera! Small Agency CIO Council, (Q facilila!e tnlcking and
reponing of progress in implementing FISMA requirements. EPA has advised ofadelay In the
transfer of the softwiR to include some recent software modificatIons., expected early In the
comIng fiscal year

RtotommtndatioD 4: T1u! C)winrullf. Broadcastlllg Board ofGO\ormon shOllld dinellhe Chl~
Information OfJi«r to tk\odop an enterprISe archilecture that -...'ill align lIS Iff/ormollon S)'Stem
nquirements ....,lh ilS mmion prot:es.!es and prY1Vlde adeqwa,e Ilfteroperobillty benI-een S)'s,ems.
ndundancy ofS)'Stems. and SYS'em.l' securil)'_

!be agency concurs with this recommendation. Some initial steps have been taken to within the
agency's budget planning process to align IT initiatives wltb agency mission. In accordance WIth
tbe principles of IT enterprise architccture. A staff member working under the CIO and assigned
to the enterprise architecture development task retired before making notable progress, and his
replacement has been delayed due to an agency wide biring freeze. The agency has recently
approved an exception to the hiring freeze for tbis purpose, and planning efforts will resume
shortly after the hiring process is complete.

We will of coune keep your IT staff informed of further progress in accomplishing the
recommendations as they occur.




                                           cr;'

                                               Kenneth Y. Tomlinson
                                               Chairman




                                                                                                        12
FRAUD. WASTE, ABUSE OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE

                   202/647-3320

                or 1-800-409-9926

         or e-mail oighotline@state.gov

      to report illegal or wasteful activities.

              You may also wtite to

            Office of Inspector General

             U.S. Department of State

               Post Office Box 9778

               Arlington, VA 22219

      Please visit our website at oig.state.gov

         Cables to the Inspector General
        should be slugged "OIG Channel"
            to ensure confidentiality.
